 Office of Inspector General
      Audit Report


 FRA CONTINUES TO MAKE PROGRESS
IMPLEMENTING PRIIA RESPONSIBILITIES
  BUT FACES CHALLENGES WITH RAIL
             PLANNING
       Federal Railroad Administration
         Report Number: CR-2014-030
        Date Issued: February 25, 2014
           U.S. Department of
                                                             Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: FRA Continues to Make Progress                                     Date:    February 25, 2014
           Implementing PRIIA Responsibilities But Faces
           Challenges with Rail Planning
           Report No. CR-2014-030

  From:    Mitchell Behm                                                           Reply to
                                                                                   Attn. of:   JA-50
           Assistant Inspector General for Rail, Maritime,
           Hazmat Transport and Economic Analysis

    To:    Federal Railroad Administrator

           The Passenger Rail Investment and Improvement Act of 2008 (PRIIA) 1 gives the
           Federal Railroad Administration (FRA) important new responsibilities—including
           integrated rail planning for the entire country, and major grant programs to fund
           high-speed rail projects. These responsibilities have greatly expanded the
           Agency’s role in the development of the Nation’s rail system.

           PRIIA also requires the Department of Transportation’s (DOT) Office of Inspector
           General (OIG) to conduct two assessments of FRA’s and Amtrak’s progress in
           implementing the Act’s provisions. This report presents the results of the second
           of our two assessments. Based on discussions with congressional staff, we have
           focused our audits on FRA’s implementation while Amtrak’s Inspector General
           has assumed responsibility for the assessment of Amtrak’s implementation efforts.
           In our initial work, we identified 29 PRIIA responsibilities that FRA must
           complete. In this second assessment, we reviewed FRA’s progress since we issued
           our first report in March 2012. 2 Specifically, we (1) evaluated FRA’s progress in
           implementing its PRIIA responsibilities, and (2) identified major challenges to
           FRA’s completion of the implementation.

           We conducted this audit between February and December, 2013, in accordance
           with generally accepted Government auditing standards. We reviewed PRIIA and
           FRA documentation, and met with program officials responsible for implementing

           1
            P.L. No. 110-432 Div. B.
           2
            FRA Has Made Progress in Implementing PRIIA Responsibilities but Challenges for Long-Term HSIPR Remain, OIG
           Report Number CR-2012-072, March 6, 2012. OIG reports and testimonies are available at www.oig.dot.gov.
                                                                                   2


the Agency’s responsibilities under the Act. See Exhibit A for details on our scope
and methodology.

RESULTS IN BRIEF

FRA continued to make progress implementing its PRIIA responsibilities, but
12 of 29 remain incomplete. The Agency made progress on 10 of these
12 responsibilities, including ensuring that Amtrak’s stations comply with the
Americans with Disabilities Act (ADA); initiating research studies on bio-fuels
and the use of bio-based technology for locomotives; and national rail planning.
However, FRA has not started work on two responsibilities—high-speed rail
corridor studies for Congress, which it plans to complete when additional funding
becomes available; and establishment of a process for the designation and
extension of high-speed rail corridors, which it plans to complete as a part of its
national rail planning efforts.

Development of a national rail plan is a major challenge to FRA’s complete
implementation of PRIIA. While it undertook several rail planning activities, FRA
did not articulate how its approach to rail planning will fully address PRIIA’s
requirement to develop a national rail plan. Rather than creating a single, national
rail plan as PRIIA’s Section 307 calls for, FRA has chosen a decentralized
planning strategy that focuses on State and regional planning. FRA officials stated
that they chose this strategy to address challenges presented by competing
stakeholder expectations for a national rail plan and limited federal funding for
passenger rail projects. As part of this approach, FRA is developing tools and
guidance for States and regions to use in their regional rail planning along with
criteria to determine Federal investment priorities. FRA officials believe that
planning region by region facilitates the integration of rail projects with other
transportation modes; promotes greater involvement by stakeholders; and
identifies priorities for limited Federal funding. However, FRA’s efforts to date
have focused on the plans for just the Northeast Corridor (NEC) and three states in
the southwest—California, Nevada, and Arizona. The Agency has not yet
established plans and milestones for other regions, or determined how it will link
regional plans into a unified national rail plan.

We are making a recommendation to FRA to assist the Agency in completing its
PRIIA required responsibilities.

BACKGROUND

In 2008, PRIIA established requirements for Amtrak, DOT, FRA, the States, and
other stakeholders to improve rail service, operations, and facilities throughout the
country. Prior to PRIIA, FRA focused on developing and implementing railroad
                                                                                  3


safety regulations; administering small grant and loan programs; and overseeing
Amtrak’s operations and disbursing Amtrak’s annual grant funds. Under PRIIA,
however, FRA must lead initiatives to improve passenger rail service, as well as
manage a multibillion-dollar high-speed rail grant program. The Agency obligated
nearly $10 billion in grants to develop and improve high-speed passenger rail
service, and continues to support these efforts.

In March 2012, we reported that 19 of FRA’s 29 PRIIA responsibilities were
outstanding—either in progress or not started—and recommended that FRA
develop an action plan with tasks and associated milestones to complete those
outstanding responsibilities. FRA submitted its action plan to us in August 2012; a
copy of the plan is included as Exhibit B of this report.

FRA CONTINUED TO MAKE PROGRESS BUT 12 PRIIA
RESPONSIBILITIES ARE NOT YET IMPLEMENTED

FRA continued to make progress implementing its PRIIA responsibilities, but
12 are not fully implemented. It completed 6 of the 19 responsibilities that it had
not completed at the time of our first assessment in March 2012 (one
responsibility is now unnecessary; see discussion below), and initiated work on an
additional 10 responsibilities. However, the Agency did not begin work on two.

The six responsibilities that FRA completed since our last report address key rail
safety, planning and reporting issues. Specifically, FRA issued quarterly reports
on metrics and standards on the service quality of passenger routes; developed a
safety committee for the NEC; created a rail cooperative research program; issued
rail planning guidance for States; submitted a report to Congress on the historic
preservation of railroads; and evaluated proposals for high-speed rail projects. See
Table 1 for FRA’s progress to date and Exhibit C for further details.
                                                                                                                4


Table 1: FRA’s Progress in Implementing its PRIIA
Responsibilities
                                       Status Reported in March                       Status as of
                                                 2012                               September 2013


    Not Started                                       4                                      2


    In-Progress                                       15                                     10


    Incomplete                                        19                                     12

                                                                                                 a
    Completed                                         10                                    17


    Total Responsibilities                            29                                     29


Source: OIG analysis
a
 FRA will not have to complete one of the 29 responsibilities because an external triggering event did not
occur. We have therefore included it among FRA’s completed responsibilities.

One responsibility—creation of an employee transition assistance program for
displaced Amtrak employees—required private companies to apply before the end
of fiscal year 2013 to assume operation of routes currently operated by Amtrak.
Because no company applied, FRA does not have to implement this responsibility.

Of the 17 responsibilities that FRA completed, 8 require the Agency’s ongoing
efforts, and we confirmed that the Agency continues to address them. For
example, PRIIA Section 207 requires the Agency to publish quarterly reports on
Amtrak’s performance and service quality. As of June 2013, FRA published
11 reports. FRA also continues to meet its responsibilities under Section 306,
which requires the Agency to establish the National Rail Cooperative Research
Program. Since it established the Program, FRA provided technical assistance to
its representatives on the Program’s advisory panels. It also conducts regular
oversight of its grant to the Transportation Research Board 3 for the Board’s work
in support of the Program.

FRA initiated 10 of the 12 responsibilities that remain incomplete. Its action plan
for completing these 12 contains tasks with milestones for each responsibility.
However, the Agency’s progress on these responsibilities varied. For example, to
meet its responsibility to provide States with rail planning guidance, the Agency
issued draft and final guidance ahead of the milestones for both documents.

3
  The Transportation Research Board is one of six divisions of the National Research Council—a private, non-profit
institution that provides services to the government, the public, and the scientific and engineering communities.
                                                                                      5


Similarly, FRA expects to complete studies of the feasibility of using bio-fuels and
bio-based lubricants in locomotives in accordance with PRIIA’s Sections 404 and
405 in early 2014, well in advance of the milestones. However, the Agency missed
its milestones for 3 tasks associated with national rail planning: completion of a
template and best practices based on planning efforts for the southwest; issuance
of the President’s budget request with further program and policy plans; and
submission of draft cost-benefit analysis guidelines to the Office of the Secretary
of Transportation. FRA also did not complete action plan tasks for monitoring
Amtrak’s compliance with the ADA 4 because Amtrak had not completed
renovations of 25 stations or purchased ADA-compliant sleeping and dining cars.

FRA did not begin work on two responsibilities—high-speed rail corridor studies
for Congress and establishment of a process for designation and extension of high-
speed rail corridors. FRA officials informed us that the Agency plans to conduct
the studies when additional funding becomes available, and to complete the
designation and extension process as a part of its national rail planning efforts.

FRA FACES CHALLENGS IN FINALIZING ITS NATIONAL RAIL
PLAN

Development of a national rail plan is a major challenge to FRA’s complete
implementation of PRIIA. While it undertook several rail planning activities, FRA
did not articulate how its approach to rail planning will fully address PRIIA’s
requirement to develop a national rail plan. Agency officials stated that, in
response to competing stakeholder expectations and limited federal funding, FRA
chose to follow a decentralized planning strategy rather than produce the single,
national rail plan that PRIIA calls for. FRA officials believe that this approach
better reflects the intent of PRIIA Section 307, which calls for a national rail plan
that is consistent with approved State rail plans.

According to FRA officials, the Agency faces two major challenges as it pursues
national rail planning—competing stakeholder expectations for a national rail
plan, and limited Federal funding. For example, Congress directed the Agency to
provide a map and an estimate of the total cost to develop a system of high speed
rail corridors. States, on the other hand, articulated a desire for a national rail plan
that provides guidance on coordination for multistate corridors and a process for
integrating rail into multimodal transportation planning at the State level. In
addition to these differing visions for the purpose and contents of a national rail
plan, FRA faces uncertain Federal funding commitments for the development of
high speed and intercity passenger rail networks. PRIIA authorized $3.7 billion for
high-speed and intercity passenger rail grants, and Congress appropriated over

4
    PRIIA Section 220
                                                                                  6


$10.2 billion between fiscal years 2008 and 2010. However, Congress did not
provide additional funding for the program after fiscal year 2010, and rescinded
$400 million.

A decentralized planning strategy is FRA’s response to these challenges. While
FRA is guiding it, the strategy is built on State and regional planning efforts.
Specifically, FRA is developing tools for States and regions to use as they develop
regional plans, as well as criteria under which Federal investments will be
justified. As FRA envisions them, regional studies will define general route
locations and levels of service, while subsequent plans will provide greater
specificity to individual routes. Informed by the regional plans, States and regions
will then develop detailed alignments and service plans before final project design
and construction. FRA officials told us that because of its integrated nature, this
process will address interests across the passenger rail community and promote
coordination among parties. FRA officials also believe that planning by regions
helps to integrate rail projects with other transportation modes and identifies
priorities for limited Federal funding.

FRA’s action plan partially reflects this strategy, including nine tasks with
milestones for the Agency to complete PRIIA’s requirement for a national rail
plan. FRA has completed work on four of these tasks, including the first phase of
the Northeast Corridor Passenger Rail Corridor Investment Plan. Scheduled for
completion in 2015, this Plan will define NEC service improvements; evaluate the
operational, network and financial impact of the improved services; and weigh the
benefits and costs of the proposed investment. The Plan will also include a
rationale for the improvements, and an implementation plan that includes an
approach to project management, a financial plan, and stakeholder agreements.

Meanwhile, FRA began work on the remaining five national rail planning tasks in
its action plan. One task calls for development of best practices for future multi-
State planning efforts based on the results of a planning study for the region
encompassing California, Nevada, and Arizona. In this study, FRA developed and
tested approaches to multi-State planning and technical tools to facilitate network
planning. It also addressed the challenges of interstate cooperation. According to
FRA officials, work remains but Agency officials expect to derive lessons from
the approach that they can apply to future regional planning. However, FRA did
not meet its action plan milestones for this task. The action plan indicates that
FRA will complete this planning study by the end of fiscal year 2013, but the task
remains outstanding.

FRA’s efforts to date on national rail planning have focused on the NEC and the
study of California, Nevada, and Arizona. The Agency has not set dates by which
it will begin to address planning needs in other regions or determined how it will
                                                                                7


link its regional plans into a unified Plan. Consequently, it is unclear how FRA’s
planning approach will address PRIIA Section 307 requirements for a national rail
plan.

CONCLUSION

FRA made progress in completing many of its PRIIA responsibilities, but faces
challenges, both within and outside its control, in fulfilling its remaining
requirements. The Agency’s decentralized approach to national rail planning
hinges upon the cooperation of multiple public and private stakeholders—some
with conflicting priorities. Constrained and uncertain funding requires vigilant
prioritization of outstanding work. When complete, these efforts will allow FRA
to realize Congress’ vision of a modern and efficient rail system that seamlessly
integrates with other transportation modes to meet the Nation’s transportation
challenges.

RECOMMENDATION

We recommend that the Federal Railroad Administrator:

Update the Agency’s PRIIA Action Plan to account for delays and challenges in
meeting deadlines, and include an explanation of how the Agency’s strategy will
fulfill the PRIIA Section 307 requirement for a national rail plan with specific
milestones for completion.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

We provided a copy of this report to FRA on December 18, 2013. On
February 11, 2014, we received the Agency’s response, which is included in its
entirety as an appendix to this report. FRA concurred with our recommendation
and provided an appropriate planned action and timeframe for completion.
Accordingly, we consider this recommendation resolved but open pending
completion of FRA’s planned action.

ACTIONS REQUIRED

FRA’s planned action and timeframe for addressing our recommendation is
responsive. We consider the recommendation as resolved but open pending
completion of the planned action.
                                                                               8


We appreciate the courtesies and cooperation of FRA’s representatives during this
audit. If you have any questions concerning this report, please call me at (202)
366-9970, or Yana Hudson, Program Director, at (202) 366-2985.

                                       #

cc:   DOT Audit Liaison, M-1
      FRA Audit Liaison, RAD-43
                                                                                  9


EXHIBIT A. SCOPE AND METHODOLOGY

This report presents the results of our audit work to fulfill the statutory
requirement to complete an overall assessment of the progress made by Amtrak
management and the Department of Transportation in implementing the provisions
of PRIIA. 1 Based on discussions with congressional staff, we focused our audit on
FRA’s implementation, while Amtrak’s Inspector General assumed responsibility
for the assessment of the company’s progress in the implementation of the Act’s
Amtrak responsibilities.

We conducted our work between February and December 2013 in accordance with
generally accepted Government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objectives.

We reviewed PRIIA and FRA documentation, and met with program officials
responsible for implementing the Agency’s PRIIA responsibilities. We evaluated
FRA’s progress on its PRIIA responsibilities since we issued our first report. If we
obtained evidence that FRA had initiated work on a responsibility, we considered
the responsibility in progress. If we obtained no evidence that FRA had initiated
its implementation of a responsibility or the associated procedural steps, we
considered the responsibility not started. For one responsibility, because an
external triggering event did not occur, we considered the responsibility complete,
even though FRA had taken no action to implement the responsibility.

To identify major challenges to FRA’s completion of the implementation of its
PRIIA responsibilities, we reviewed appropriations laws and FRA documents, and
met with Agency officials. We assessed FRA’s approach to national rail planning
in relation to the requirement in PRIIA’s Section 307.




1
    P.L. 110-432, Division B, §221(a)


Exhibit A. Scope and Methodology
                                                                                                10


   EXHIBIT B. THE FEDERAL RAILROAD ADMINISTRATION’S PRIIA
   ACTION PLAN


                                                                 Memorandum
        U.S. Department
        of Transportation

        Federal Railroad
        Administration


Date:                                 Reply to Attn of:

Subject: INFORMATION: PRIIA Action Plan, Pursuant to OIG Report Number CR-2012-072

From: Joseph C. Szabo
       Administrator

   To: Mitch Behm
       Assistant Inspector General
       for Rail, Maritime, and Economic Analysis

    I am pleased to provide the Federal Railroad Administration’s (FRA) action plan to
    complete remaining requirements from the Passenger Rail Investment and Improvement Act
    of 2008.1 This plan fulfills your recommendation in the report, “FRA Has Made Progress in
    Implementing PRIIA Responsibilities, But Challenges for Long-Term HSIPR Remain.”2

    If you or your staff have any questions concerning this plan, please feel free to contact Paul
    Nissenbaum, Associate Administrator for Railroad Policy and Development, at (202) 493-
    6312.




        1
            Public Law 110-432, Division B.
        2
            Office of Inspector General, Report Number CR-2012-072, March 6, 2012.


   Exhibit B. The Federal Railroad Admini stration’s PRII A Act ion Plan
                                                                                                         11


                Table 1: Summary of FRA’s PRIIA Responsibilities, Status, and Milestones


 PRIIA                                         OIG March 2012 Status3 and FRA Milestones
 Section FRA Responsibility               : In progress; : Not started per OIG March 2012 Report
     207   Collect data and        
           publish quarterly       207-01: Within the quarter after the report period, work with Amtrak to
           reports on              publish the quarterly report.
           performance and
           service quality
     208   Obtain a qualified      
           independent entity to   208-01: Within 6 weeks of receipt of an appropriation for this purpose,
           develop and             issue a task order to the Volpe Center to develop a work plan for
           recommend objective     developing the methodologies.
           methodologies for       208-02: Within 3 months of issuing the task order, prepare the work plan.
           Amtrak Route            208-03: Within 1 year of preparing the work plan, complete
           decisions               implementation of the work plan for FRA review prior to forwarding to
                                   Amtrak and the Congress.
     210   Monitor the             
           development,            210-01: By the end of the first quarter of fiscal year 2013, hire a long-
           implementation, and     distance passenger train oversight manager.
           outcome of Amtrak’s     210-02: Not later than the fourth quarter of FY 2013, issue the FY 2012
           improvement plans       long-distance passenger train route performance report.
                                   210-03: Not later than the fourth quarter of FY 2014, issue the FY 2013
                                   performance report, including evaluation of the five improvement plans
                                   issued in FY 2010. In subsequent performance reports, include evaluation
                                   of all improvement plans in effect for at least 3 years.

     212   Establish a Northeast 
           Corridor Safety       212-01: During the first quarter of FY 2013, submit the draft report to the
           Committee             Office of the Secretary for review.
     220   Monitor and conduct     
           periodic reviews of     220-01: Within 6 months of the 25th station’s substantial completion,
                                   review the first 25 stations brought into compliance under Amtrak’s
           Amtrak’s compliance
                                   Accessible Stations Development Program.
           with ADA and
                                   220-02: Within 6 months of production of Amtrak’s first sleeping car and
           ARRA
                                   first dining car, respectively, for long distance passenger trains, review
                                   compliance with the Americans with Disabilities Act of 1990 and the
                                   Rehabilitation Act of 1974.




 3
     OIG Report Number CR-2012-072, page 7.

Exhibit B. The Federal Railroad Admini stration’s PRII A Act ion Plan
                                                                                                       12


             Table 1: Summary of FRA’s PRIIA Responsibilities, Status, and Milestones


 PRIIA                                       OIG March 2012 Status3 and FRA Milestones
 Section FRA Responsibility             : In progress; : Not started per OIG March 2012 Report
   301 Issue a final rule        
         establishing            301-01: Within 9 months of obligating $10.0 billion of HSIPR funds,
         application and         initiate preparation of the consolidated rulemaking.
         qualification           301-02: Within 4 months of receiving additional HSIPR appropriations for
         procedures for          grants that do not waive the PRIIA rulemaking requirement, submit a
         intercity passenger     Notice of Proposed Rulemaking (NPRM) for Office of the Secretary
         rail grants (See        approval.
         section 501)            301-03: Within 6 months of the deadline for receipt of comments on the
                                 published NPRM, submit a Final Rule for Office of the Secretary approval.
  303   Establish minimum        
        requirements for the     303-01: Within the first quarter of FY 2013, publish in the Federal Register
        preparation and          proposed guidelines for stakeholder and public review and comment. (See
        periodic revision of     also 307-02.)
        State rail plans         303-02: By the fourth quarter of FY 2013, complete review and analysis of
                                 comments and submit final guidelines for Office of the Secretary approval.
  304   Select and approve a     
        new rail tunnel          304-01: By the end of the first quarter of FY 2016, complete the
        alignment in             environmental analysis and preliminary engineering.
        Baltimore and ensure     304-02: Following completion of the environmental analysis and
        completion of the        preliminary engineering, select the new rail tunnel alignment.
        related
        environmental
        review
  306   Establish and carry      
        out a rail cooperative   306-01: By the end of the first quarter of FY 2013, provide nominations of
        research program         FRA staff to research panels. TRB, which is administering this program,
                                 will establish additional milestones.




Exhibit B. The Federal Railroad Admini stration’s PRII A Act ion Plan
                                                                                                       13


             Table 1: Summary of FRA’s PRIIA Responsibilities, Status, and Milestones


 PRIIA                                      OIG March 2012 Status3 and FRA Milestones
 Section FRA Responsibility            : In progress; : Not started per OIG March 2012 Report

  307   Develop a long-       
        range national rail   307-01: By the end of the first quarter of FY 2013, the National
        plan                  Cooperative Rail Research Program will have nine projects underway that
                              contribute data and best practices for national rail planning activities.
                              307-02: By the end of the first quarter of FY 2013, issue draft State Rail
                              Plan guidance for stakeholder comments. (See also 303-01.)
                              307-03: By the end of the third quarter of FY 2013, provide a template and
                              best practices for future multi-state planning efforts, based on Southwest
                              Region planning efforts, and in coordination with the NCRRP study on the
                              subject.
                              307-04: By the end of the second quarter of FY 2013, provide a strategy
                              describing the next phases of FRA’s national planning activities to OIG and
                              other DOT officials.
                              307-05: By the end of the second quarter of FY 2013, the Administration’s
                              FY 2014 budget request will include further program and policy plans.
                              307-06: By the end of FY 2013, complete Phase 1 of the Northeast
                              Corridor Passenger Rail Corridor Investment Plan.
                              307-07: By the end of FY 2013, submit for Office of the Secretary
                              approval draft benefit-cost analysis guidance.
                              307-08: By the end of the second quarter of FY 2014, submit for Office of
                              the Secretary approval draft guidelines for States/Regional Organizations to
                              propose changes to existing high-speed rail corridors.
                              307-09: By the end of the second quarter of FY 2014, submit for Office of
                              the Secretary approval a strategy and schedule for establishing and tracking
  404   Report to Congress 
        the results of a study 404-01: By the end of the third quarter of FY 2014, issue the final report.
        to determine the
        extent to which
        railroads could use
        bio-fuels as
        alternatives to diesel
  405   Report to Congress 
        the results of a       405-01: By the end of the third quarter of FY 2014, issue the final report.
        feasibility study on
        the use of readily
        biodegradable
        lubricants for
        railroads




Exhibit B. The Federal Railroad Admini stration’s PRII A Act ion Plan
                                                                                                       14


              Table 1: Summary of FRA’s PRIIA Responsibilities, Status, and Milestones


 PRIIA                                      OIG March 2012 Status3 and FRA Milestones
 Section FRA Responsibility             : In progress; : Not started per OIG March 2012 Report
  407    Report to Congress 
         on the results of a   407-01: By the end of the second quarter of FY 2013, submit the final
         study and actions to report to Congress.
         streamline
         compliance with
         historic preservation
         requirements.
  501    Issue regulations for 
         the high-speed rail   See section 301.
         corridor program
  502    Evaluate high-speed Completed.
         rail corridor
         proposals
  215    Develop an              
         employee transition     215-01: Within 4 months of the Secretary’s section 214 “sufficient
         assistance program      resources” certification, propose to Amtrak the terms under which FRA
         for Amtrak              could provide financial incentive grants.
  224 Submit reports on          
 part 1 high-speed rail          224-01: Within 3 months of receipt of an appropriation for this purpose,
        corridor service         develop a statement of objectives for the studies.
        studies to Congress      224-02: Within 6 months of completing the statement of objectives, issue a
                                 Request for Proposals for the related studies.
  224 Establish a process        
 part 2 for designation and      See 307-08 above.
        extension of high-
        speed rail corridors
  307    Develop a schedule 
         for achieving        See 307-09 above.
         specific, measurable
         performance goals



                    Table 2: FRA’s PRIIA Responsibilities, Status, and Milestones
                                             OIG March 2012 Status and FRA Milestones
    FRA Responsibility                            : In progress; : Not started
                                PRIIA Section 207: Metrics and Standards
 Develop the standards in      DONE. Final standards published May 12, 2010. Preliminary standards
 consultation with             published for public comment March 13, 2009.
 stakeholders




Exhibit B. The Federal Railroad Admini stration’s PRII A Act ion Plan
                                                                                                         15


 Collect the data and publish   ONGOING. FRA posted the first quarterly report to its Web site on March 3,
 a quarterly report on          2011. FRA and Amtrak jointly developed the report specifications and
 intercity passenger rail       formats. The current reports do not include route-by-route financial
 performance and service        performance. When Amtrak completes its general accounting system
 quality.                       upgrade, Amtrak will be able to allocate costs to specific routes. After eight
                                quarters of comparable data are available, FRA will add the route-by-route
                                financial performance to the quarterly report.
                                MILESTONE 207-01: Within the quarter after the report period, work with
                                   Amtrak to publish the quarterly report.

           PRIIA Section 208: Methodologies for Amtrak Route and Service Planning Decisions
 Engage a qualified          DONE. In September 2009, FRA engaged the Volpe National Transportation
 independent entity by April Systems Center (Volpe Center), subject to the availability of funds.
 16, 2009
 Develop and recommend          PENDING. No funds are currently available for this purpose. FRA has
 objective methodologies        informed Congress in January 2009, December 2009, and September 2010,
 for Amtrak route and           about this lack of funding.
                                MILESTONE 208-01: Within 6 weeks of receipt of an appropriation for this
 service decisions (by
                                    purpose, FRA will issue a task order to the Volpe Center to develop a
 October 16,
                                    work plan for developing the methodologies.
 2010).                         MILESTONE 208-02: Within 3 months of issuing the task order, the Volpe
                                    Center will prepare the work plan.
                                MILESTONE 208-03: Within 1 year of preparing the work plan, the Volpe
                                    Center will complete implementation of the work plan for FRA review
                                    prior to forwarding to Amtrak and the Congress.

                                                  Comments

 The products of the national rail planning effort will provide the facts and policy guidance that undergird
 many other requirements of PRIIA. For example, section 208 directs the independent entity to consider,
 among other items, the existing and projected performance and service quality of intercity passenger train
 operations; connectivity among routes; and the transportation needs of communities that are underserved by
 public intercity transportation. These factors are intrinsic to national rail planning, or derived from
 statistics to be produced pursuant to the section 207 metrics and standards.

 PRIIA section 201 essentially defines the National Railroad Passenger Transportation System as the
 network in existence as of the date of enactment of the Act, plus the designated high-speed rail corridors.
 Neither Amtrak nor Congress has called for deletions or additions of a magnitude that would necessitate
 application of the section 208 methodologies. In particular, the long-distance route structure referred to in
 title 49 of the United States Code, section 24102(5)(C) has remained intact.




Exhibit B. The Federal Railroad Admini stration’s PRII A Act ion Plan
                                                                                                         16


                                 PRIIA Section 210: Long-Distance Routes
 Monitor the development        PARTIALLY COMPLETE. Amtrak published on schedule the first ten (of
 of the improvement plans       fifteen) improvement plans, i.e., those due in fiscal years 2010 and 2011. FRA
                                expects Amtrak to develop and publish the final five plans during fiscal year
                                2012.
 Monitor the implementation ONGOING. FRA is in the process of hiring an employee to intensity its
 of the improvement plans   oversight of long-distance passenger train service, as the Federal
                            Government’s “purchaser” of long-distance service. In addition, with the first
                            improvement plans in place, and six Section 207 quarterly reports already
                            published, FRA is in a position to begin publishing improvement plan
                            evaluations annually.
                            MILESTONE 210-01: By the end of the first quarter of fiscal year 2013, hire
                               a long-distance passenger train oversight manager.
                            MILESTONE 210-02: Not later than the fourth quarter of FY 2013, issue the
                               FY 2012 long-distance passenger train route performance report.

 Monitor the outcome of the PENDING. Certain improvement plan elements, particularly those dependent
 improvement plans          on freight railroad buy-in, might take time to implement and produce results.
                            FRA believes that the plan outcomes can be objectively assessed when their
                            implementation is substantially complete or their outcome is known, which
                            will generally take 3 years.
                            MILESTONE 210-03: Not later than the fourth quarter of FY 2014, FRA will
                                issue the FY 2013 performance report, including evaluation of the five
                                improvement plans issued in FY 2010. In subsequent performance
                                reports, include evaluation of all improvement plans in effect for at least 3
                               years.
                        PRIIA Section 212: Northeast Corridor Safety Committee
 Establish the Northeast        DONE. The Committee has been established and is meeting periodically in
 Corridor (NEC) Safety          accordance with its mandate. Its initial meeting occurred on February 22,
 Committee                      2012; the second meeting took place on May 24, 2012, as described in the
                                Federal Register (77 FR 20690).
 Report to Congress on          IN PROGRESS. The Committee has begun to develop recommendations and
 efforts to improve NEC         submitted one to the Secretary on June 6, 2012, regarding assistance from the
 safety and security. Include   Federal Communications Commission on the availability of frequency
 Committee                      spectrum for positive train control. The statutory deadline for the Committee
 recommendations and            report to Congress is “the beginning of the first session of each Congress,”
 related comment to the         i.e., January 2013.
 Secretary.                     MILESTONE 212-01: During the first quarter of FY 2013, FRA will submit
                                     the draft report to the Office of the Secretary for review.




Exhibit B. The Federal Railroad Admini stration’s PRII A Act ion Plan
                                                                                                       17


      PRIIA Section 220: Oversight of Amtrak’s Compliance with Accessibility Requirements
 FRA shall monitor and         ONGOING: FRA’s Offices of Civil Rights and Railroad Policy and
 conduct period reviews of     Development are cooperatively monitoring and reviewing Amtrak’s
 compliance with the           compliance with applicable requirements for stations and rolling stock. The
 Americans with Disabilities   Next Generation Equipment Committee, of which FRA is a member, issued
 Act of 1990 and the           corridor equipment specifications that meet or exceed the Americans with
 Rehabilitation Act of 1974    Disabilities Act and the Rehabilitation Act requirements. FRA requires its
                               grantees to purchase equipment that meets the Next Generation Equipment
                               Committee specifications.
                               MILESTONE 220-01: Within 6 months of the 25th station’s substantial
                                 completion, FRA will review the first 25 stations brought into compliance
                                 under Amtrak’s Accessible Stations Development Program.
                               MILESTONE 220-02: Within 6 months of production of Amtrak’s first
                                 sleeping car and-first dining car, respectively, for long distance passenger
                                 trains, FRA will review compliance with the Americans with Disabilities
                                 Act of 1990 and the Rehabilitation Act of 1974.

             PRIIA Section 301: Capital Assistance for Intercity Passenger Rail Service
                             PRIIA Section 302: Congestion Grants
                    PRIIA Section 501: High Speed Rail Corridor Program
 Implement the HSIPR           DONE. The HSIPR program provides a single, comprehensive, and cohesive
 Program                       Federal direction and source of funds for PRIIA sections 301, 302, and 501.
                               To date, Congress appropriated about $10 billion for grants through the
                               American Recovery and Reinvestment Act and the fiscal year 2010
                               Appropriations Act, of which almost $9.7 billion has been obligated.
 Provide rulemakings to   PENDING. FRA’s priority is to focus its limited resources on efficient and
 govern the HSIPR Program effective management of its existing, obligated grants and obligation of its
                          remaining appropriated funds. FRA published initial guidance on June 23,
                          2009, with six additional guidance documents subsequently published through
                          March 2011. FRA balances this priority with the need to prepare for future
                          appropriations, which Congress might make without the previous exemption
                          from rulemaking. FRA has received no HSIPR appropriations since FY 2010.
                          FRA intends to publish a consolidated rulemaking covering the entire HSIPR
                          Program under sections 301, 302, and 501. This rulemaking is likely to be
                          complex and resource-intensive to develop; the initial guidance alone required
                          30 pages in the Federal Register.
                          MILESTONE 301-01: Within 9 months of obligating $10.0 billion of HSIPR
                              funds, FRA will initiate preparation of the consolidated rulemaking.
                          MILESTONE 301-02: Within 4 months of receiving additional HSIPR
                              appropriations for grants that do not waive the PRIIA rulemaking
                              requirement, submit a Notice of Proposed Rulemaking (NPRM) for Office
                              of the Secretary approval.
                          MILESTONE 301-03: Within 6 months of the deadline for receipt of
                              comments on the published NPRM, submit a Final Rule for Office of the
                              Secretary approval.
                                   PRIIA Section 303: State Rail Plans




Exhibit B. The Federal Railroad Admini stration’s PRII A Act ion Plan
                                                                                                        18


 Establish the minimum           IN PROGRESS: FRA is preparing for public review proposed State rail plan
 requirements for the            guidelines, incorporating the minimum requirements.
 preparation and periodic        MILESTONE 303-01: Within the first quarter of FY 2013, FRA will publish
 revision of State rail plans       in the Federal Register proposed guidelines for stakeholder and public
                                    review and comment. (See also 307-02.)
                                 MILESTONE 303-02: By the fourth quarter of FY 2013, FRA will complete
                                     review and analysis of comments and submit final guidelines for Office of
                                     the Secretary approval prior to publication.
                                 PRIIA Section 304: [Baltimore] Tunnel Project
 Select a new rail tunnel         ONGOING. Two FRA-sponsored feasibility studies are complete; and
 alignment in Baltimore and       preliminary engineering and NEPA are funded, obligated in April 2011, and
 assure completion of the         underway.
 environmental process.           MILESTONE 304-01: By the end of the first quarter of FY 2016, FRA will
                                     complete the environmental analysis and preliminary engineering.
                                  MILESTONE 304-02: Following completion of the environmental analysis
                                     and preliminary engineering, FRA will select the new rail tunnel
                                     alignment.
                                                  Background

 Maryland received a $60 million first-round HSIPR grant for preliminary engineering and NEPA for a new
 passenger rail tunnel though Baltimore. The deteriorated Baltimore and Potomac tunnel has suffered from
 poor geometry since its 1873 initiation. New and improved infrastructure would reduce maintenance costs,
 speed intercity passenger train service through Baltimore, and assure uninterrupted, safe service for decades
 to come. The engineering and environmental work will build upon two previous FRA-sponsored studies—
 an interim study published in 2005 and a follow-on study published in January 2011. Both studies
 preliminarily recommended separate passenger and freight routes on alignments north of the existing
 tunnel.
                         PRIIA Section 306: Rail Cooperative Research Program
 Establish National Rail         DONE. FRA awarded a $5 million grant to the Transportation Research
 Cooperative Research            Board (TRB) in September, 2010.
 Program (NCRRP)

 Establish Advisory Board        DONE. The NCRRP Advisory Board is established and functioning.
 Set Up Research Panels,         DONE. TRB is administering the program. In May 2012, the Advisory
 Obtain Contractors,             Board selected the first round of research projects and implementation has
 Conduct Research                begun.
                                 MILESTONE 306-01: By the end of the first quarter of FY 2013, FRA will
                                    provide nominations of FRA staff to research panels. TRB, which is
                                    administering this program, will establish additional milestones.
                       PRIIA Section 307: Federal Rail Policy—National Rail Plan
 Develop the preliminary         DONE. FRA submitted the Preliminary National Rail Plan to Congress on
 national rail plan              October 15, 2009.




Exhibit B. The Federal Railroad Admini stration’s PRII A Act ion Plan
                                                                                                   19


 Develop a long-range     ONGOING. On September 28, 2010, FRA provided Congress the National
 national rail plan       Rail Plan Progress Report that built upon the Preliminary National Rail Plan.
                          FRA has a comprehensive, long-range planning strategy that recognizes
                          different stakeholders’ needs and priorities and the need to address certain
                          planning issues at the regional and state levels. This strategy entails the
                          release of materials that cumulatively fulfill the goals of the National Rail
                          Plan.
                          MILESTONE 307-01: By the end of the first quarter of FY 2013, the
                              National Cooperative Rail Research Program will have nine projects
                              underway that contribute data and best practices for national rail planning
                              activities.
                          MILESTONE 307-02: By the end of the first quarter of FY 2013, FRA will
                              issue draft State Rail Plan guidance for stakeholder comments. (See also
                              303-01.)
                          MILESTONE 307-03: By the end of the third quarter of FY 2013, provide a
                              template and best practices for future multi-state planning efforts, based
                              on Southwest Region planning efforts, and in coordination with the
                              NCRRP study on the subject.
                          MILESTONE 307-04: By the end of the second quarter of FY 2013, FRA
                              will provide a strategy describing the next phases of FRA’s national
                              planning activities to OIG and other DOT officials.
                          MILESTONE 307-05: By the end of the second quarter of FY 2013, the
                              Administration’s FY 2014 budget request will include further program
                              and policy plans.
                          MILESTONE 307-06: By the end of FY 2013, FRA will complete Phase 1 of
                              the Northeast Corridor Passenger Rail Corridor Investment Plan.
                          MILESTONE 307-07: By the end of FY 2013, FRA will submit for Office of
                              the Secretary approval draft benefit-cost analysis guidance.
                          MILESTONE 307-08: By the end of the second quarter of FY 2014, FRA
                              will submit for Office of the Secretary approval draft guidelines for
                              States/Regional Organizations to propose changes to existing high-speed
                              rail corridors.
 Develop a schedule for   ONGOING. The Administration’s FY 2012 budget request contained several
 achieving specific,      performance goals for national rail programs. Additional work in this area is
 measurable performance   underway.
 goals                    MILESTONE 307-09: By the end of the second quarter of FY 2014, FRA
                              will submit for Office of the Secretary approval a strategy and schedule
                              for establishing and tracking passenger and freight rail performance.




Exhibit B. The Federal Railroad Admini stration’s PRII A Act ion Plan
                                                                                                        20


                                                 Comments

 FRA has a comprehensive, long-range planning strategy that recognizes different stakeholders’ needs and
 priorities and the need to address certain planning issues at the regional and state levels. This strategy
 entails the release of materials that cumulatively fulfill the goals of the National Rail Plan. FRA has
 already released several related documents, including
     National Rail Plan Progress Report (September 2010);
     High-Speed Rail Safety Strategy (November 2009);
     Seven pieces of interim program guidance (June 2009 through March 2011); and
     FY 2012 and FY 2013 budget requests (February 2011 and February 2012).

 During the next several months, FRA will release additional materials, such as state rail planning
 guidance, and continue efforts to provide baseline data and best practices, such as the National
 Cooperative Rail Research Program and Northeast Corridor planning. FRA is extending its national
 planning strategy to include additional policy materials, technical guidance, and regional and state
 planning toolkits.

 Notably, PRIIA requires the National Rail Plan to be “consistent with approved state rail plans.” When
 PRIIA passed, 19 states had such plans. With FY 2010 appropriations, FRA is funding 11 state rail plans
 and 2 regional rail plans.
 FRA is developing a strategy detailing the next phase of national rail planning activities, which fall into
 three categories:
   National Planning: Documents that provide an analysis of trends and future outlooks for the nation’s
       rail industry; articulate the rail development and delivery roles for each stakeholder and level of
       government; establish specific and measurable performance goals; and describe the potential future
       role of passenger and freight rail in the nation’s transportation system. Documents accomplishing
       many of these objectives have already been completed, and will continue to be enhanced and
       refined as regional and state planning efforts advance and as additional tools and guidance are
       developed.
   Regional and State Planning: Documents primarily developed by FRA’s regional and state partners,
       according to guidance and parameters established at the national level, that lay out detailed visions
       for passenger and freight rail; maps of potential new or enhanced corridors; financial planning
       strategies; and service planning approaches.
   Tools and Guidance: Documents that provide grantees and other stakeholders with technical assistance
       on project development and delivery issues; standards for safety; and modeling tools,
        methodologies, and best practices for assessing public benefits, service planning scenarios, capital
       and operating/maintenance cost projections, and market demand for potential future projects.
                                PRIIA Section 404: Locomotive Biofuel Study
 Determine the extent to       IN PROGRESS. From February 2010 through January 2011, Amtrak tested
 which freight railroad,       820 biodiesel blended fuel on its Heartland Flyer service. In March 2011,
 Amtrak, and other             FRA awarded funds to North Carolina State University for analysis of
 passenger rail operator       biofuel’s energy intensity, environmental effects, cost, availability, public
 could use biofuel blends to   benefits, and implications for locomotive performance and warranties. The
 power locomotives and         analysis and testing will continue through March 2014.
 other vehicles                MILESTONE 404-01: By the end of the third quarter of FY 2014, FRA will
                                   issue the final report.
                    PRIIA Section 405: Study of the Use of Bio-based Technologies

Exhibit B. The Federal Railroad Admini stration’s PRII A Act ion Plan
                                                                                                      21


 Study the feasibility of      IN PROGRESS. FRA awarded funds to the National Agriculture-Based
 using readily biodegradable   Lubricants Center, University of Northern Iowa for the study that will
 lubricants for freight and    continue through March 2014.
 passenger railroad            MILESTONE 405-01: By the end of the third quarter of FY 2014, FRA will
 locomotives, rolling stock,      issue the final report.
 or other equipment

                           PRIIA Section 407: Historic Preservation of Railroads
 Study shall be conducted in   ONGOING. FRA initiated the study in February 2011, which required
 consultation with the         extensive consultation with government agencies and stakeholders in industry
 Advisory Council on           and the historic preservation community. The report will contain both
 Historic Preservation,        administrative and legislative recommendations, in accordance with Section
 National Conference of        407. The report has been completed and the clearance process started in
 State Historic Preservation   August 2012.
 Officers, Department of the
 Interior, appropriate
 representatives of the
 railroad industry, and
 representative stakeholders
 Submit a report on the        IN PROGRESS. In August 2012, FRA will submit the report to OST for
 results of the study          clearance. FRA completed intensive review of the report prior to submission
                               to appropriate Departmental and Executive Branch reviewers.
                               MILESTONE 407-01: By the end of the second quarter of FY 2013, FRA
                                   will issue the final report.

                        PRIIA Section 502: Additional High-Speed Rail Projects
 Issue the Request for     DONE. FRA issued a Request for Expressions of Interest on December 16,
 Proposals by December 16, 2008.
 2008



 Determine whether to          DONE. FRA received and reviewed eight proposals. While FRA found that
 establish commissions.        five proposals merited further consideration, none concerned the Northeast
                               Corridor, for which section 502 provided a site-specific trip-time goal. The
                               proposals contained no guarantees of private funding. Therefore, DOT lacked
                               sufficient justification to create of a commission. No further milestones
                               pertain to this responsibility.




Exhibit B. The Federal Railroad Admini stration’s PRII A Act ion Plan
                                                                                                           22


                           PRIAA Section 215: Employee Transition Assistance
 Develop a program which         PENDING. With no Amtrak operations currently facing the prospect of
 at the Secretary’s discretion   ceasing due to a Section 214 pilot program, DOT has not created or
 may provide grants for          implemented a program to provide financial incentives to employees
 financial assistance to         adversely affected by this section. Under the section 214 final rule (issued on
 Amtrak employees                December 14, 2011, and effective February 13, 2012), the Secretary must
 adversely affected by an        certify that FRA has sufficient resources that are adequate to undertake the
 operator taking over an         pilot program before petitions or bids may be submitted. The Secretary will
 Amtrak route under the          not make this certification until Congress appropriates funds for section 214.
 pilot program created under     MILESTONE 215-01: Within 4 months of the Secretary’s section 214
 PRIIA section 214                  “sufficient resources” certification, FRA will propose to Amtrak the
                                    terms under which FRA could provide financial incentive grants. (Note:
                                    This Milestone is subject to the October 2013 expiration date of the prior
                                    program under section 214 of PRIIA.
                                                   Background

 The section 214 pilot program is available for up to two routes. Selection of an alternate operator for a
 route under the pilot program would supplant Amtrak’s operation. Under existing labor contracts, Amtrak
 employees whose positions would be eliminated would bid on remaining jobs, potentially bumping other
 employees. Employees without positions after the bidding and bumping would be eligible for up to five
 years of pay as a result of a route cessation. Section 215 would provide adversely affected employees an
 optional one-time lump sum payment, in lieu of labor protection pay. Employee acceptance of the lump
 sum option would reduce payments that Amtrak would otherwise owe its adversely affected employees.
                              PRIIA Section 224(c)(1): Passenger Rail Studies
 Conduct analyses of named PENDING. No funds are currently available for this purpose.
 corridors and submit a    MILESTONE 224-01: Within 3 months of receipt of an appropriation for this
 report.                      purpose, develop a statement of objectives for the studies.
                           MILESTONE 224-02: Within 6 months of completing the statement of
                              objectives, issue a Request for Proposals for the related studies.

                                                   Comments

 Section 224(c)(1) requires the Secretary to undertake analyses of several specifically named proposed
 corridors and to report thereon to the authorizing Committees of the Congress by October 16, 2009. Such
 studies are complex and involve travel demand, operating costs, capital investments, environmental factors,
 and other topics. The studies will require significant assistance from consultants for which funds have not
 been appropriated.
                              PRIIA Section 224(c)(2): Corridor Designations
 Establish a process for         PENDING. This effort is integral to FRA’s national rail planning under
 designation and extension       section 307. Such integration is essential to assure that designations,
 of corridors.                   extensions, and modifications, if any, are cohesive, orderly, and responsive to
                                 national needs. See Milestone 307-08.




Exhibit B. The Federal Railroad Admini stration’s PRII A Act ion Plan
                                                                                                     23


                                              Background

 A process for designations, extensions, and modifications has developed incrementally since 1992, on the
 basis of Federal Register notices (63 FR 68499 and 65 FR 43826) and extensive, well-documented
 precedent (see at http://www.fra.dot.gov/rpd/passenger/618.shtml). In recent years, the Department has not
 acted on corridor designation or extension requests pending ongoing work on national rail planning. FRA
 anticipates taking action in conjunction with national rail planning. In this manner, the Department will
 bring necessary context and national perspective on the designation process.




Exhibit B. The Federal Railroad Admini stration’s PRII A Act ion Plan
                                                                                             24



EXHIBIT C. FRA’S PROGRESS IN IMPLEMENTATION OF ITS
PRIIA RESPONSIBILITIES
      Legend:                  Not Started              In-Progress               Completed 


   PRIIA Section         FRA Responsibility and Progress to Date                      Status

        § 206            Review and approve Amtrak’s grant requests
Establishment of Grant   FRA established initial requirements and submitted a            
        Process          requisite letter to Congress on December 22, 2008.

                         Develop new or improve existing metrics and
        § 207            minimum standards
                                                                                         
Metrics and Standards    FRA issued a final version of the metrics and
                         standards on May 12, 2010.

                         Collect data and publish quarterly reports on
                         performance and service quality
        § 207            FRA collected the necessary data and published its
                         first quarterly report on performance and service               
Metrics and Standards
                         quality of intercity passenger train operations on
                         March 3, 2011, and has continued to publish the
                         reports since then.

                         Obtain a qualified independent entity to develop
                         and recommend objective methodologies for
                         Amtrak route decisions
        § 208
                         FRA stated that while it engaged the Volpe Center in
  Methodologies for
                         September 2009—several months after the mandated                
  Amtrak Route and
                         deadline—it used the funding for this contract on
  Service Planning
                         National Rail Plan efforts. FRA considers the National
      Decision
                         Rail Plan a prerequisite for Sec. 208, since it should
                         provide facts, policy, and guidance that will provide
                         the foundations for many other requirements.

                         Monitor the development, implementation, and
                         outcome of Amtrak’s improvement plans
                         FRA established three milestones towards the
        § 210            completion of this responsibility. The first milestone –
                         hiring a long-distance passenger train oversight                
Long-Distance Routes
                         manager – was completed in November 2012. The
                         Agency is in progress complete the second milestone,
                         development of a FY 2012 long-distance passenger
                         train route performance report.




Exhibit C. FR A’ S Pr ogress in Implementation of Its PRII A
Responsi bilities
                                                                                        25



   PRIIA Section         FRA Responsibility and Progress to Date                  Status


                         Review and approve Amtrak’s Capital Plan
                         FRA has approved Amtrak’s NEC State-of-Good-
                         Repair Plan, which includes a comprehensive capital
                         investment program, published on April 15, 2009. It
        § 211            has also directed Amtrak to submit monthly and
                         quarterly reports on its capital project status. FRA       
 NEC State-of-Good-
                         reviews the scope and budgets of all of Amtrak’s
    Repair Plan
                         proposed projects, including for the NEC. At quarterly
                         review    meetings     with   Amtrak’s     Engineering
                         Department, FRA reviews all proposed NEC capital
                         expenditures against the Plan, both before and after
                         approval.

                         Establish a Northeast Corridor Infrastructure and
                         Operations Advisory Commission
        § 212
                         FRA established the Commission, with members from
NEC Infrastructure and   Amtrak, NEC States, and USDOT. Freight railroads           
     Operations          are represented as non-voting members.
   Improvements



                         Establish a Northeast Corridor Safety Committee
        § 212
                         The committee has been established under the
NEC Infrastructure and   auspices of the FRA Office of Safety. Its draft report     
     Operations          was sent to the Office of the Secretary on June
   Improvements          2, 2012.

                         Complete a rulemaking to develop a pilot
        § 214            passenger rail program
Alternative Passenger    FRA issued a final rule on December 14, 2011, more         
   Rail Service Pilot    than 2 years after the PRIIA imposed deadline of
       Program           October 16, 2009. The final rule was effective on
                         February 13, 2012.

                         Develop an employee transition assistance
                         program for Amtrak employees
                         FRA has not issued regulations under this Section
        § 215            because no alternative passenger rail service has
                         been proposed pursuant to Sec. 214. Because the
 Employee Transition                                                                
                         pilot passenger rail program developed pursuant to
    Assistance           Section 214 expired on October 16, 2013, FRA did not
                         need to develop the employee transition assistance
                         program.




Exhibit C. FR A’ S Pr ogress in Implementation of Its PRII A
Responsi bilities
                                                                                          26



   PRIIA Section         FRA Responsibility and Progress to Date                    Status


                         Monitor and conduct periodic reviews of Amtrak’s
                         compliance with both ADA and Rehabilitation Act
                         of 1974
                         FRA’s Office of Civil Rights and Office of Railroad
                         Policy and Development work cooperatively to monitor
                         and review Amtrak’s compliance with applicable
        § 220
                         accessibility requirements. FRA established two
Oversight of Amtrak’s    milestones toward completion of its responsibilities
  Compliance with        pursuant to Section 220. Both of these milestones            
    Accessibility        however, are triggered by Amtrak achieving certain
   Requirements          progress markers in its program to rehabilitate
                         stations and procure new rail cars. FRA does not
                         expect Amtrak to meet the earliest of those progress
                         thresholds until late 2013 or early 2014. In the
                         meantime, FRA has engaged a contract team to
                         assist the Agency in its oversight of Amtrak’s
                         progress.

                         Submit reports on high-speed rail corridor service
                         studies to Congress
        § 224            According to FRA, available funds were redirected to
                         National Rail Plan development since the plan is a           
   Passenger Rail
                         prerequisite to this Section to ensure that
   Service Studies
                         designations, extensions, and modifications of
                         corridors are cohesive, orderly, and responsive to
                         national needs.

                         Establish a process for designation and extension
        § 224            of high-speed rail corridors
   Passenger Rail                                                                     
                         According to FRA, completion of this responsibility is
   Service Studies       contingent upon other national rail planning activities.

                         Make grants to assist in financing the capital
                         costs necessary to provide or improve intercity
        § 301            passenger rail transportation
Capital Assistance for   FRA’s High-Speed Intercity Passenger Rail (HSIPR)            
 Intercity Passenger     program incorporates grants authorized by Secs. 301,
     Rail Service        302, and 501. As of September, 2013, FRA had
                         obligated $10.0 billion to 148 projects and had outlaid
                         $1.4 billion.




Exhibit C. FR A’ S Pr ogress in Implementation of Its PRII A
Responsi bilities
                                                                                         27



   PRIIA Section         FRA Responsibility and Progress to Date                   Status

                         Issue a final rule establishing application and
                         qualification procedures for intercity passenger
                         rail grants
                         FRA missed its October 2010 deadline for issuing the
                         final rule, and has been administering the HSIPR
                         program according to interim guidance. To date, all
                         appropriation acts for PRIIA have authorized FRA to
        § 301
                         administer the HSIPR program without a final rule in
Capital Assistance for   place. According to FRA, the Agency has begun               
 Intercity Passenger     identifying appropriate areas of guidance and
     Rail Service        technical assistance in the areas of project
                         development and delivery. According to the Agency,
                         this approach will include establishing criteria to
                         identify topics that may be appropriate to include in a
                         rulemaking. However, the Agency has not started
                         work on any of the three milestones it established
                         related to its rulemaking responsibilities under
                         Sections 301 and 501.

                         Make grants to assist in financing the capital
        § 302            costs for high priority rail corridor projects to
                         reduce congestion or facilitate ridership growth            
 Congestion Grants
                         See discussion of Sec. 301.

                         Establish minimum requirements for the
                         preparation and periodic revision of State rail
                         plans
        § 303
                         FRA’s draft state rail planning guidance appeared in        
  State Rail Plans       the Federal Register on August 14, 2012 for
                         stakeholder and public review and comment. FRA
                         published the final state rail planning guidance on
                         September 18, 2013.

                         Select and approve a new rail tunnel alignment in
                         Baltimore and ensure completion of the related
                         environmental review process
                         As of May, 2013, FRA had made contractual
        § 304
                         arrangements with Maryland DOT and Amtrak to                
   Tunnel Project        conduct the necessary Preliminary Engineering and
                         National Environmental Protection Act analysis, which
                         will lead to the eventual selection of a new tunnel.
                         FRA expects to complete the selection of a new
                         alignment by the middle of 2017.




Exhibit C. FR A’ S Pr ogress in Implementation of Its PRII A
Responsi bilities
                                                                                          28



   PRIIA Section       FRA Responsibility and Progress to Date                      Status

                       Establish and carry out a rail cooperative research
                       program
       § 306           FRA has executed a grant agreement with the
                       Transportation Research Board to establish the                 
  Rail Cooperative
                       National Rail Cooperative Research Program, named
 Research Program
                       an advisory committee to guide the research, and
                       named FRA staff liaisons to the research panels.
                       There are currently 9 research projects underway.

                       Develop a long-range national rail plan
                       FRA released a preliminary National Rail Plan on
                       October 15, 2009, and on September 28, 2010, FRA
                       provided Congress with a National Rail Plan progress
                       update. FRA continues to make progress against its
                       milestones to define Federal rail policy, for example by
                       publishing draft state rail planning guidelines. However
       § 307           the agency does not intend to issue a single national rail     
 Federal Rail Policy   plan. Instead, the agency is pursuing a decentralized
                       approach to national rail planning focused on developing
                       a variety of materials, tools, and guidance that
                       stakeholders can use to develop regional, state, and
                       local rail plans. However, the FRA has not articulated
                       how its approach will fully address PRIIA’s requirement
                       for a national rail plan or established plans and
                       milestones beyond those for the Northeast Corridor and
                       southwest region.
                       Develop a schedule for achieving specific,
                       measurable performance goals
                       FRA’s PRIIA action plan states that the Agency
                       intends to submit for approval by the Office of the
       § 307           Secretary of Transportation a strategy and schedule
                       for establishing and tracking passenger and freight rail       
 Federal Rail Policy
                       performance. The President’s FY 2014 budget
                       request included future program and policy plans but
                       did not offer a schedule of specific, measurable
                       performance goals.




Exhibit C. FR A’ S Pr ogress in Implementation of Its PRII A
Responsi bilities
                                                                                         29



   PRIIA Section       FRA Responsibility and Progress to Date                     Status

                       Report to Congress the results of a study to
                       determine the extent to which railroads could use
                       bio-fuels as alternatives to diesel

       § 404           FRA issued a notice of funding availability seven months
                       after the October 16, 2009 deadline for a final report to     
 Locomotive Biofuel
                       Congress. In March of 2011, FRA executed a grant
      Study
                       agreement with the University of North Carolina.
                       According to FRA, the study is underway and the
                       Agency expects the study will be complete by early
                       2014.

                       Report to Congress the results of a feasibility
                       study on the use of readily biodegradable
                       lubricants for railroads
       § 405
                       See previous discussion of Sec. 404. An agreement             
 Study of the Use of
                       with the University of Northern Iowa on this feasibility
Biobased Technology
                       study was executed on May 11, 2011. According to
                       FRA, the study is underway and the Agency expects
                       the study will be complete by early 2014.

                       Establish procedures and/or facilities for
                       preclearance of passengers traveling from the
                       U.S. to Canada
                       Amtrak has established a pre-inspection process for
                       its route to Vancouver, Canada, and it is currently in
       § 406           discussions with the Department of Homeland
   Cross-Border        Security and Canadian stakeholders for its route to           
  Passenger Rail       Montreal. In the implementation of this provision, FRA
     Service           has focused primarily on the monitoring of
                       developments for Amtrak’s Vancouver (Canada)-
                       bound and Montreal-bound routes and offering of
                       assistance to Amtrak—assistance Amtrak has thus far
                       declined, preferring to work directly with State
                       stakeholders.




Exhibit C. FR A’ S Pr ogress in Implementation of Its PRII A
Responsi bilities
                                                                                      30



   PRIIA Section        FRA Responsibility and Progress to Date                 Status

                        Report to Congress on the results of a study and
                        actions to streamline compliance with historic
                        preservation requirements and on actions to
       § 407            expedite decision making for capital projects
Historic Preservation   involving properties of disputed historical               
    of Railroads        significance in the States of Alaska and North
                        Carolina
                        FRA issued its report to Congress on April 18, 2013.

       § 501            Make grants to finance capital projects in
                        designated high-speed rail corridors                      
  High-Speed Rail
  Corridor Program      See discussion of Sec. 301.

       § 501            Issue regulations for the high-speed rail corridor
                        program                                                   
  High-Speed Rail
  Corridor Program      See discussion of Sec. 301.

                        Issue a request for proposals for projects in any of
       § 502            the 10 designated high-speed rail corridors or the
                        Northeast Corridor                                        
Additional High-Speed
     Rail Projects      FRA issued a Request for Expressions of Interest on
                        December 11, 2008, 5 days before PRIIA’s deadline.

                        Evaluate high-speed rail corridor proposals
                        FRA received and reviewed eight proposals. While the
       § 502
                        Agency found that five proposals merited further
Additional High-Speed   consideration, none contained guarantees of private       
     Rail Projects      funding. Therefore, the Agency decided that there was
                        insufficient justification to create a commission for
                        further consideration of the proposals.




Exhibit C. FR A’ S Pr ogress in Implementation of Its PRII A
Responsi bilities
                                                           31


EXHIBIT D. MAJOR CONTRIBUTORS TO THIS REPORT


Name                                    Title

Yana Hudson                             Program Director

Brendan Culley                          Project Manager

Matthew Williams                        Senior Analyst

Susan Neill                             Writer/Editor




Exhibit D. Major Contributors to This Report
                                                                                                                32



           APPENDIX. AGENCY COMMENTS



           U.S. Department
           of Transportation
           Federal Railroad Administration               MEMORANDUM
           INFORMATION: Management Response to
             Office of Inspector General Draft Report
Subject:     on FRA Implementation of the Passenger                                  Date:   February 11, 2014
             Rail Investment and Improvement Act of
             2008

  From:
           Joseph Szabo
           Federal Railroad Administrator
           Mitchell L. Behm
                                                                                 Reply to
    To:    Assistant Inspector General for Rail, Maritime,                    the Attn of:   ROA-03
            Hazmat Transport and Economic Analysis

           The Office of Inspector General’s (OIG) report highlights the significant progress
           the Federal Railroad Administration (FRA) has made in implementing the
           Passenger Rail Investment and Improvement Act of 2008 (PRIIA or the Act). This
           report confirms that FRA has completed a majority of the Act’s provisions and is
           actively implementing the remaining provisions, except the two for which
           Congress has not yet appropriated funds.

           FRA is proud of its PRIIA accomplishments, particularly in light of the Act’s
           sweeping provisions and FRA’s simultaneous need to implement the American
           Recovery and Investment Act of 2009 expeditiously, which included design,
           implementation, and management of the $10 billion High-Speed and Intercity
           Passenger Rail program (HSIPR). In the less than 2 years since OIG issued its
           previous PRIIA status report, 1 FRA fully addressed an additional 70 percent of its
           legislative requirements, with 17 provisions complete to date. As OIG
           recommended in its previous report, FRA developed, and is successfully
           implementing, an action plan to complete the outstanding responsibilities. FRA

           1
               OIG, FRA Has Made Progress In Implementing PRIIA Responsibilities, But Challenges for Long-Term HSIPR
               Remain, CR-2012-072, March 6, 2012.


           Appendix. Agency Comments
                                                                                    33


has met the plan’s major milestones. Further, FRA is implementing the 10
remaining provisions under the Act according to the established schedule, as OIG
verified.

National Rail Planning

FRA has made significant progress implementing PRIIA’s national rail planning
provision, Section 307. Over the past several years, FRA has released several
documents that collectively provide a comprehensive national blueprint advancing
rail. These documents include the Preliminary National Rail Plan (October
2009), High-Speed Rail Safety Strategy (November 2009), National Rail Plan
Progress Report (September 2010), State Rail Plan Guidance (October 2013), and
the fiscal year 2014 budget request (April 2013). They cumulatively define and
establish national goals and objectives; safety and operational performance
metrics; principles and methodologies for sound rail planning and analysis;
anticipated trends in the freight and passenger rail markets; and a 5-year rail
investment plan that details Federal priorities, eligible applicants and project types,
criteria for market-based investment decisions, and other grant conditions.

PRIIA Section 307 specifically calls for a “long-range national rail plan that is
consistent with approved State rail plans.” When Congress enacted PRIIA in
2008, few States had robust State rail plans. Thus, FRA recognized that Federal
guidance for State rail planning was a prerequisite step to long-range national
planning. Similarly, Congress recognized the limited extent of State rail plans and
mitigated the urgency for States to develop these plans without Federal
guidance—each HSIPR appropriation act waived the requirement that HSIPR
projects be included in a State rail plan. Because FRA has now issued the Federal
guidance, States will prepare and update their rail plans reflecting a consistent set
of national parameters.

Recommendations and Responses

OIG Recommendation 1: “We recommend that the Federal Railroad
  Administrator update the Agency’s PRIIA Action Plan to account for delays
  and challenges in meeting deadlines, and include an explanation of how the
  Agency’s strategy will fulfill the PRIIA Section 307 requirement for a National
  Rail Plan with specific milestones for completion.”



Appendix. Agency Comments
                                                                                   34


   Response: Concur – FRA will provide OIG an updated PRIIA Action Plan,
   including a strategy for fulfilling the requirements of PRIIA Section 307, by
   June 2014.


We appreciate this opportunity to offer additional perspective on the OIG draft
report. We also appreciate the courtesies of the OIG staff in conducting this
complex review. Please contact Rosalyn G. Millman, Planning and Performance
Officer, at (202) 384-6193, with any questions or requests for additional
assistance.




Appendix. Agency Comments
